GR-90-98-039
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE RICHMOND POLICE DEPARTMENT
CALIFORNIA
 
GR-90-98-039
 
September 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of six
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Richmond Police Department (RPD), California. The RPD
received a grant of $300,000 to hire 4 sworn officers under the Accelerated Hiring,
Education, and Deployment Program (AHEAD), $150,000 to hire 2 sworn officers under the
first supplemental Universal Hiring Program (UHP I), $300,000 to hire 4 sworn officers
under the second UHP award (UHP II), and $375,000 to hire 5 sworn officers under the third
UHP award (UHP III). In addition, the RPD received $11,547 to redeploy 4.5 sworn officer
full-time equivalents (FTEs) to community policing under the Making Officer Redeployment
Effective program (MORE 95) and $136,060 to redeploy 5.4 sworn officer FTEs to community
policing under the MORE 96 program. The purpose of the additional officers under the grant
program is to enhance community policing efforts. 
Due to the RPD's failure to meet the terms and conditions of all of the COPS grants, we
are questioning $378,837 in funds received under the AHEAD/UHP supplemental grants and a
total of $30,142 reimbursed under both the MORE 95 ($11,468) and the MORE 96 ($18,674)
grant programs. In addition, $559,257 in funds should be withheld as funds to better use
until the RPD increases the number of city funded sworn police officers to their baseline
level.
In brief, the most significant audit findings were:


- The RPD supplanted the operating budgets for fiscal years (FY) 1996 through 1999 with
    COPS grant funds. The sworn officer staffing level fell below the RPDs baseline sworn
    officer staffing for each of the aforementioned FY by: 
(1) 4 in FY 1996, (2) 10 in FY 1997, (3) 1 in FY 1998, and (4) 7 in FY 1999. As of our
    audit, the RPD had been reimbursed for the supplanted sworn officer positions resulting in
    questioned costs of $373,810 (federal share). All future payments should be withheld until
    the RPD restores their baseline level of 182 sworn officers. If the RPD cannot restore the
    baseline of 182 city funded sworn officers, the remaining grant award ($559,257) should be
    deobligated and the funds be put to better use. 




- The RPD was unable to document the redeployment of 4.5 sworn officer FTEs to
    community policing under the MORE 95 grant resulting in unsupported costs of $11,468.
- The RPD did not develop and implement a plan to demonstrate and document the
    redeployment of 5.4 sworn officer FTEs to community policing ensuing from the MORE 96
    grant which resulted in unsupported costs of $18,674. If the RPD cannot develop and
    implement the plan, the remaining grant award ($117,386) should be deobligated and the
    funds be put to better use.
- Because the RPD supplanted their FYs 1996 through 1998 operating budgets with COPS
    funds, they did not enhance community policing activities with the number of sworn
    officers equal to the number of COPS grant funded officers.
#####